U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Stephen Linder v. United States, No. 19-1082
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 2, 2020,
and placed on the docket on March 4, 2020. The government’s response is now due, after one
extension, on May 4, 2020. We respectfully request, under Rule 30.4 of the Rules of this Court, a
further extension of time to and including May 26, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1082
LINDER, STEPHEN
USA

CYNTHIA H. HYNDMAN
ROBINSON CURLEY & CLAYTON, P.C.
300 SOUTH WACKER DRIVE
SUITE 1700
CHICAGO, IL 60606
312-633-3100
CHYNDMAN@ROBINSONCURLEY.COM
312-633-0303(Fax)
JOHN PAUL SCHNAPPER-CASTERAS
1717 K STREET, N.W.
SUITE 900
WASHINGTON, DC 20006
202-630-3644

